                                              OFFICE OF THE ASSISTANT SECRETARY
                                              FOR ADMINISTRATION AND MANAGEMENT



Office of Inspector General—Office of Audit




                                              AUDIT OF DOL’S FISCAL YEAR 2008
                                              PROCUREMENT DATA REPORTED IN THE
                                              FEDERAL PROCUREMENT DATA SYSTEM –
                                              NEXT GENERATION




                                                                   Date Issued: February 22, 2010
                                                                Report Number: 03-10-001-07-711
U.S. Department of Labor                                      February 2010
Office of Inspector General
Office of Audit                                               AUDIT OF DOL’S FISCAL YEAR 2008
                                                              PROCUREMENT DATA REPORTED IN THE
                                                              FEDERAL PROCUREMENT DATA
BRIEFLY…                                                      SYSTEMNEXT GENERATION
Highlights of Report Number: 03-10-001-07-711, Audit
of DOL’s Fiscal Year 2008 Procurement Data Reported           WHAT OIG FOUND
in the Federal Procurement Data SystemNext
Generation to the Assistant Secretary for Administration      The Department generally reported all FY 2008
and Management.                                               procurement actions the FPDS-NG; however, the
                                                              detailed data elements that comprised these
                                                              procurement actions were not always accurately
WHY READ THE REPORT                                           reported. Our statistical sample of 1,386 procurement
                                                              data elements found that approximately 8 percent were
This report discusses the Office of Inspector General         either incorrect or unsupported. One cause of the
(OIG) performance audit of the completeness and               reporting errors was that contracting specialists may
accuracy of the U.S. Department of Labor’s (DOL)              differ in their understanding of certain data-field
Fiscal Year (FY) 2008 (October 1, 2007, to September          requirements because the data-field descriptions are
30, 2008) procurement data in the Federal Procurement         sometime ambiguous. As a result, the procurement
Data System-Next Generation (FPDS–NG). The                    data the Congress, GSA, and OMB received from DOL
FPDS-NG is the government-wide system of                      through the FPDS-NG was not always reliable.
information on the Federal government’s purchases of
goods and services. The data it contains is used to           We also found that the report DOL used to certify to
create recurring and special reports to the President,        OMB the accuracy of its FY 2008 procurement data in
Congress, Government Accountability Office, Federal           the FPDS-NG could not be adequately supported. The
executive agencies, and the general public. Therefore,        contractor DOL hired to perform the procurement data
it is imperative that DOL assures the completeness and        validation reported that the overall accuracy rate of
accuracy of all information entered into FPDS-NG. The         DOL’s FY 2008 procurement data in the FPDS was
General Services Administration (GSA) administers             99.32 percent. However, the contractor did not have
FPDS-NG and, in DOL, the Office of the Assistant              documentation to support the methodology,
Secretary for Administration and Management                   conclusions, findings, or recommendations contained in
(OASAM) is responsible for implementing the                   the report. The contracting vehicle OASAM used did not
Department's procurement program, including the               require the contractor to maintain support for the work it
FPDS-NG.                                                      performed. Without supporting documentation, OASAM
                                                              had no assurance as to the quality of the contractor’s
                                                              work. Because the contractor’s work could not be relied
WHY OIG CONDUCTED THE AUDIT                                   upon for DOL’s certification to OMB, we believe the
                                                              $190,718 paid for this work could have been put to
OIG conducted the audit to determine if DOL provided          better use.
the Congress, GSA, and the Office of Management and
Budget (OMB) with complete and accurate procurement
data.                                                         WHAT OIG RECOMMENDED

The audit covered FY 2008 procurement data and                In summary, we recommended that procurement staff
DOL’s certification to OMB on the accuracy of this data       be trained on understanding and entering data into the
in the FPDS-NG. For FY 2008, DOL reported in the              FPDS-NG, and DOL establish a mechanism by which
FPDS-NG 9,367 contracting actions totaling                    procurement staff could address questions or problems
approximately $1.8 billion.                                   related to entering procurement data. We also
                                                              recommended that if DOL plans to use a contractor for
                                                              future FPDS-NG reviews, it ensures the contract
READ THE FULL REPORT                                          requirements are specific, and requires the assigned
To view the report, including the scope, methodology,         Contracting Officer’s Technical Representative to
and full agency response, go to:                              monitor the contactor to ensure the work complies with
                                                              the contract requirements. The OASAM Deputy
http://www.oig.dol.gov/public/reports/oa/2010/03-10-001-07-   Assistant Secretary for Operations concurred with the
711.pdf.                                                      recommendations.
                                                   U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Objective — Did DOL management provide the Congress, GSA, and OMB with
            complete and accurate procurement data?........................................... 4
         Finding — DOL did not always accurately report FY 2008 procurement
                  data in the Federal Procurement Data System-Next Generation. ........ 4

Recommendations ........................................................................................................ 9

Exhibits
         Exhibit 1 Statistical Results and Projections ....................................................... 13
         Exhibit 2 List of Data Elements Audited and Reason for Exception.................... 15

Appendices
         Appendix A Background ..................................................................................... 19
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 21
         Appendix C Acronyms ........................................................................................ 25
         Appendix D OASAM Response .......................................................................... 27
         Appendix E Acknowledgements ......................................................................... 29




                                                                    Federal Procurement System-Next Generation
                                                                                   Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
                                     Report No. 03-10-001-07-711
                                    U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




February 22, 2010

                       Assistant Inspector General’s Report



T. Michael Kerr
Assistant Secretary for Administration and Management
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of the
completeness and accuracy of the U.S. Department of Labor’s (DOL) Fiscal
Year (FY) 2008 (October 1, 2007, to September 30, 2008) procurement data in the
Federal Procurement Data System-Next Generation (FPDS–NG).

The Office of Federal Procurement Policy Act of 1974 required the Office of
Management and Budget’s (OMB) Office of Federal Procurement Policy (OFPP) to
establish a system for collecting procurement data in the Federal Government. OFPP
implemented the FPDS in 1978. The General Services Administration (GSA)
administers the FPDS. GSA modernized the FPDS, which is currently referred to as the
FPDS-NG and became available in 2004. In DOL, the Office of the Assistant Secretary
for Administration and Management (OASAM) is responsible for implementing the
Department's procurement program including the FPDS-NG.

In May 2008, OMB issued a memorandum to Chief Acquisition Officers and senior
procurement officials on improving the quality of FY 2008 acquisition data in the
FPDS-NG. The memorandum provided detailed guidance for verifying, validating, and
certifying FPDS-NG data. By January 5, 2009, agencies had to certify that their FY 2008
procurement data was in the FPDS-NG and that their data quality plans were
completed. DOL certified to OMB that 100 percent of all reportable contracting actions
awarded during FY 2008 had been entered into the FPDS-NG as fully and accurately as
possible and the overall accuracy rate of the data elements tested by an independent
contractor was 99.32 percent.

The audit objective was to determine if DOL provided the Congress, GSA, and OMB
with complete and accurate procurement data. The audit covered FY 2008 procurement
data and DOL’s certification to OMB on the accuracy of this data in the FPDS-NG. For
FY 2008, DOL reported in the FPDS-NG 9,367 contracting actions totaling
approximately $1.8 billion.



                                                    Federal Procurement System-Next Generation
                                            1                      Report No. 03-10-001-07-711
                                             U. S. Department of Labor – Office of Inspector General


To accomplish the audit objective we compared data in DOL’s E-Procurement System
(EPS) 1 to data in the FPDS-NG. We obtained the FPDS-NG data base for DOL FY
2008 contracting actions from GSA’s website and statistically sampled 66 contract
actions from a total of 5,341 contracting actions 2 . For each sample item, we verified 21
data elements in the FPDS-NG to supporting documentation in the contract file. We also
reviewed documentation DOL used to support its certification to OMB on the accuracy
of FY 2008 procurement data in the FPDS-NG.

We conducted this performance audit in accordance with generally accepted
government auditing standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our finding and conclusions based
on our audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

The Department generally reported all FY 2008 procurement actions in the FPDS-NG;
however, the detailed data elements that comprised these procurement actions were
not always accurately reported. Our statistical sample of 1,386 procurement data
elements found that approximately 8 percent were either incorrect or unsupported.
Specifically, approximately five percent of the data elements reported in the FPDS-NG
did not agree with the corresponding documentation in the contract files; and
approximately three percent of the data reported in the FPDS-NG were not supported
by evidence in the contract files. Examples of the procurement data elements with
which we found problems were Current Completion Date, Extent Competed, Base and
Exercised Options Value, Type of Set Aside, and Action Obligation Amount.
Procurement officials told us one cause of the reporting errors was that contracting
specialists may differ in their understanding of certain data-field requirements because
the data-field descriptions are sometime ambiguous. As a result, the procurement data
the Congress, GSA, and OMB received from the Department through the FPDS-NG
was not always reliable. The FPDS-NG is the only government-wide system for
obtaining information on the Federal Government’s purchases of goods and services,
and the data it contains is used to create recurring and special reports to the President,
Congress, Government Accountability Office (GAO), Federal executive agencies, and
the general public. Therefore, it is imperative that DOL assure the completeness and
accuracy of all information entered into the FPDS-NG.



1
  The EPS is DOL’s management information system for the procurement processes throughout the
Department. DOL procurement staff submits most of the procurement data to FPDS-NG electronically
through the EPS.
2
  We excluded all contracting actions of $3,000 or less, as well as actions taken solely to de-obligate
funds.

                                                            Federal Procurement System-Next Generation
                                                     2                     Report No. 03-10-001-07-711
                                       U. S. Department of Labor – Office of Inspector General


We also found that the report DOL used to certify to OMB the accuracy of its FY 2008
procurement data in the FPDS-NG could not be adequately supported. The contractor
DOL hired to perform the procurement data validation reported that the overall accuracy
rate of DOL’s FY 2008 procurement data in the FPDS was 99.32 percent. However, the
contractor did not have documentation to support the methodology, conclusions,
findings, or recommendations contained in the report. The contracting vehicle OASAM
used was an indefinite delivery/indefinite quantity type of contract for labor hours, which
did not require the contractor to maintain support for the work it performed. This contract
type also impeded the Contracting Officer’s Technical Representative’s (COTR)
oversight of the contract. As a result, DOL approved payment of the contactor’s invoices
based on the hours worked without ensuring that the work was properly supported with
reliable documentation. Without supporting documentation, OASAM had no assurance
as to the quality of the contractor’s work to ensure it was sufficient for DOL’s certification
to OMB. Because the contractor’s work could not be relied upon for DOL’s certification
to OMB, we believe the $190,718 paid for this work could have been put to better use.

To improve the accuracy of FPDS-NG data, we recommended that procurement staff be
trained on understanding and entering data into the FPDS-NG to ensure it is complete
and accurate and establish a mechanism in DOL by which procurement staff could
address questions or problems related to entering procurement data into the FPDS-NG.
We also recommended, if DOL plans to use a contractor for future FPDS-NG reviews,
the Assistant Secretary for Administration and Management needs to ensure the
contract requirements are specific, and require the assigned COTR to monitor the
contactor to ensure the work complies with the contract requirements.

In the response to the draft report, the OASAM Deputy Assistant Secretary for
Operations concurred with the recommendations. The response also stated that, on the
whole, the report makes a broad finding based on a comparison of the DOL reported
FPDS-NG data accuracy rate and the audit-derived accuracy rate. The response
explained that the audit did not apply the OMB-approved plan and methodology utilized
by DOL, and the audit used a smaller sample set.

We disagree that the report made a broad finding based on a comparison of the DOL
reported FPDS-NG data accurate rate and the audit-derived accuracy rate. The audit
report explained that the statistical sampling method used for the audit was not the
same as reported by the contractor and that the results cannot be compared to each
other. The sample size used in the audit was sufficient to support the accuracy rate
reported. The contractor hired by DOL to conduct the required statistical review could
not provide support for its accuracy rate.




                                                    Federal Procurement System-Next Generation
                                              3                    Report No. 03-10-001-07-711
                                     U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective — Did DOL management provide the Congress, GSA, and OMB with
            complete and accurate procurement data?

The Department generally reported all FY 2008 procurement actions in the FPDS-NG;
however, the detailed data elements that comprise these procurement actions were not
accurately reported. In evaluating whether the FPDS-NG data were complete, we
compared contracting actions in the FY 2008 FPDS-NG to DOL’s EPS. We found minor
differences, specifically, there were 14 contract actions totaling $432,589 in EPS that
were not reported in the FPDS-NG. This represented less than one percent of the total
contract actions and total obligations in the EPS.

Finding — DOL did not always accurately report FY 2008 procurement data in the
         Federal Procurement Data System-Next Generation.

The Department did not always provide the Congress, GSA, and OMB with accurate
procurement data. We selected a statistical sample of 66 contracting actions and, for
each contracting action, tested for 21 specific data elements contained in the FPDS-NG.
We found that approximately 8 percent of the 1,386 data elements tested were either
incorrect or unsupported, resulting in an overall accuracy rate of no more than
93 percent at a 95 percent confidence level (one-sided limit.) Approximately five percent
of the data elements reported in the FPDS-NG did not agree with the corresponding
documentation in the contract files; and approximately three percent of the data
reported in the FPDS-NG were not supported by evidence in the contract files.
Procurement officials told us that the FPDS-NG data field descriptions are sometimes
ambiguous and, as a result, contracting specialists may have a different understanding
of what is required for certain data fields. An OASAM official stated that the OMB
training curriculum for the acquisition workforce does not cover data entry into the
FPDS-NG, nor does DOL have formal training specific to FPDS-NG. OASAM officials
told us that FPDS-NG data entry is learned through on-the-job training, and that they
made a half-day presentation on the FPDS-NG to DOL procurement staff in July 2008.

It is imperative that DOL ensure the completeness and accuracy of all information it
submits to FPDS-NG because it is the only system that contains data that the Federal
Government uses to create recurring and special reports to the President, Congress,
GAO, Federal executive agencies, and the general public. The data is also used to
populate the USAspending.gov website in accordance with the Federal Funding
Accountability and Transparency Act.

We also found that the contractor-produced report DOL used to certify to OMB that its
FY 2008 procurement data in the FPDS-NG were 99.32 percent accurate could not be
adequately supported. Specifically, the contractor did not have adequate evidence to
support its reported results. It should be noted that our statistical sampling method was
not the same as the one reported by the contractor; therefore, the two sets of results
cannot be compared to each other.


                                                  Federal Procurement System-Next Generation
                                            4                    Report No. 03-10-001-07-711
                                      U. S. Department of Labor – Office of Inspector General



Federal Acquisition Regulation (FAR), Subpart 4.606, Reporting Data, states that
Federal agencies shall use FPDS-NG to maintain publicly available information about all
contracting actions exceeding the micro-purchase threshold, and any modifications to
those actions that change previously reported contracting action report data, regardless
of dollar value. FAR Subpart 4.604 explains that the Senior Procurement Executive, in
coordination with the head of the contracting activity, is responsible for developing and
monitoring a process to ensure timely and accurate reporting of contractual actions to
FPDS-NG. The responsibility for the submission and accuracy of the individual
contracting action report resides with the contracting officer who awarded the
contracting action. The FAR goes on to state that when a contract-writing system is
integrated with FPDS-NG, the contracting action report must be confirmed for accuracy
prior to release of the contract award.

In May 2008, OMB issued a memorandum to Chief Acquisition Officers and senior
procurement officials providing detailed guidance for verifying, validating, and certifying
FPDS-NG data. OMB expected agencies to randomly select contract records and in
sufficient numbers to produce statistically valid conclusions at a 95 percent confidence
level, with an error rate of no more than plus or minus 5 percent. The sampled
contracting action report had to be validated against the associated contract file by an
individual other than the contracting officer who awarded the contract or the person
entering the contract data. The reviewer had to obtain sufficient information to validate
any contracting action report data elements not contained in the contract file. Data
elements that could not be validated had to be considered incorrect.

The following are details of our work on the accuracy of the Department’s FY 2008
procurement data in the FPDS-NG and the support of the contractor-produced report
DOL used to certify to OMB that its FY 2008 procurement data in the FPDS-NG were
99.32 percent accurate.

DOL did not always accurately report procurement data associated with the contracting
actions.

To determine the accuracy of the FPDS-NG data, we statistically sampled 66
contracting actions from a population of 5,341. We found that DOL did not accurately
report approximately 8 percent of the procurement data in the FPDS-NG. Based on our
sample, we are 90 percent confident that the overall accuracy rate is between 90.31
percent and 92.65 percent. The point estimate is a 91.48 percent accuracy rate.
However, it should be noted that our statistical sampling method was not the same as
reported by the contactor DOL used to review the FY 2008 FPDS–NG data and the
results cannot be compared to each other because the contractor tested 46 data
elements and we tested 21 data elements.

We tested 21 data elements for each of the 66 sampled contracting actions for a total of
1,386 items. For each data element, we used the contracting action report to compare
the information reported in the FPDS-NG to the supporting documentation in the


                                                   Federal Procurement System-Next Generation
                                             5                    Report No. 03-10-001-07-711
                                      U. S. Department of Labor – Office of Inspector General


contract file. We found errors in 109, or 7.8 percent, of the 1,386 items tested. For 10 of
the 21 data elements tested, we are 95 percent confident the error rate for these data
elements was more than 10 percent. The following table provides a list of these
elements and their respective error rates. See Exhibit 1 for our statistical results and
estimates.

Table 1: Data Elements With Error Rates More than 10 Percent
                                                                   Statistically Projected
                       Data Element                                      Error Rate
 1. Current Completion Date                                                 41.8%
 2. Extent Competed                                                         39.4%
 3. Ultimate Completion                                                     27.7%
 4. Base and Exercised Options Value                                        23.2%
 5. Date Signed                                                             22.1%
 6. Reason for Modification                                                 18.9%
 7. Type of Contract                                                        18.3%
 8. Type of Set Aside                                                       16.8%
 9. Data Universal Number System (DUNS) Number                              14.1%
10. Action Obligation Amount                                                13.4%

We found two types of errors in our testing of the data elements-either documentation in
the contract file did not agree with information in the data element, or there was no
evidence in the contract file to support information in the data element. Of the 109 errors
we found, 63 related to documentation in the contract file not agreeing with the
information in the FPDS-NG data element, and 46 related to no evidence being in the
contract file to support the information in the FPDS-NG data element. See Exhibit 2 for
a list of the data elements reviewed and details of the errors found.

Based on our interviews with procurement officials, we concluded there was a disparity
of knowledge among them about the FPDS-NG, as some procurement officials were not
familiar with the FPDS-NG Manual and Data Dictionary. Familiarity with these two
sources of information is integral to ensuring correct data is entered into the FPDS-NG.
Procurement officials also told us the FPDS-NG is vulnerable to data-entry errors
occurring because the data element descriptions are sometimes ambiguous.
Furthermore, OASAM officials stated that the OMB training curriculum for the
acquisition workforce does not cover data entry into the FPDS-NG and DOL does not
have formal training specific to FPDS-NG. They said FPDS-NG data entry is learned
through on-the-job training. Staff misunderstanding of data element descriptions and
system requirements resulted in data-inputting errors which ultimately impacted the
accuracy of information in the FPDS-NG. We concluded that, because of agency
concerns about the difficulty in understanding some of the requirements for the
FPDS-NG data elements, and the problems found in our audit, training specifically on
FPDS-NG is needed.

It is imperative that DOL ensure the completeness and accuracy of all information it
submits to FPDS-NG because it is the only system that contains data that the Federal

                                                   Federal Procurement System-Next Generation
                                             6                    Report No. 03-10-001-07-711
                                        U. S. Department of Labor – Office of Inspector General


Government uses to create recurring and special reports to the President, Congress,
GAO, Federal executive agencies, and the general public. The data is also used to
populate the USAspending.gov website in accordance with the Federal Funding
Accountability and Transparency Act.

DOL relied on work by a contractor that cannot be supported to certify the accuracy of
the Department’s FPDS-NG Data to OMB.

The contractor hired by DOL to conduct the required statistical review of the
Department’s procurement data in the FPDS-NG could not provide support for its report.
The contractor did not have documentation for all the contracting actions it sampled.
This is needed to support the contractor’s statistical projections and the conclusions and
recommendations in its report to DOL. The lack of documentation occurred because the
contracting vehicle OASAM used was an indefinite delivery/indefinite quantity type of
contract for labor hours, which did not require the contractor to maintain support for the
work it performed. Therefore, we concluded that this contract method was not
appropriate for the type of work the contactor was tasked to do. The lack of clear
contract requirements also impeded the COTR’s oversight of the contract. While the
COTR did receive documentation from the contractor, he did not require the contactor to
provide detailed support for the work performed. As a result, DOL approved payment of
the contactor’s invoices based on the hours worked without ensuring that the work was
properly supported with reliable documentation. Without supporting documentation,
OASAM had no assurance as to the quality of the contractor’s work to ensure it was
sufficient for DOL’s certification to OMB. Because the contractor’s work could not be
relied upon for DOL’s certification to OMB, we believe the $190,718 paid for this work
could have been put to better use.

To comply with FAR and OMB requirements 3 , DOL contracted with Logistics Solutions
Group, Incorporated (LSG) to audit the contracting actions reported in the FPDS-NG for
accuracy and completeness. DOL used the results contained in LSG’s report for the
required OMB certification. According to the statement of work in the task orders
awarded to LSG, one of the first tasks required the contractor to establish the audit
protocol needed for the work to be performed and to conduct an independent audit.
LSG was required to establish the methodology that would allow certification of data
accuracy and completeness and present this to DOL for approval.

On January 6, 2009, LSG issued a report to DOL entitled Federal Procurement Data
System – Next Generation (FPDS-NG) Fiscal Year 2008 Data Quality Review. The
report stated that the engagement would follow procedures outlined in the OMB
guidance dated May 9, 2008. According to the report, LSG sampled and reviewed 464
contracting actions, which it considered more than sufficient to statistically satisfy a 95
percent confidence level with an error rate of plus or minus 5 percent, as required by
OMB. The report stated 46 data fields were verified for each action. LSG reported that
the DOL agencies had a combined score of 99.32 percent overall data accuracy. LSG

3
 FAR subpart 4.604(c) and OMB May 2008 Memorandum to Chief Acquisition Officers and senior
procurement officials.

                                                      Federal Procurement System-Next Generation
                                                7                    Report No. 03-10-001-07-711
                                     U. S. Department of Labor – Office of Inspector General


provided OASAM with three recommendations for improving data quality in the
FPDS-NG.

We requested from both OASAM and LSG all documentation that supported the report.
However, the only evidence we received were seven Excel spreadsheets which were
not sufficient to support the work performed and conclusions reached in LSG’s report.
We analyzed the spreadsheets and found they could only support testing on a sample
of 243 contracting actions, far less than the 464 contracting actions LSG reported as
having sampled and reviewed. Additionally, there was no documentation to support the
methodology, conclusions, findings, or recommendations contained in the report. The
OASAM COTR’s monitoring consisted of receiving status reports in the form of emails
from the assigned LSG employee. However, the COTR did not track the sampling work
the LSG employee performed to ensure it adequately supported the reported results.

We also found that the person LSG assigned to perform the audit work did not meet the
qualifications proposed for the contract. The proposal stated that assigned LSG
personnel would have financial and U.S. Government experience. The resume for the
person who performed the work showed he had no financial or audit experience before
being assigned to the DOL FPDS-NG contract in October 2007. The COTR did not
document how he determined the qualifications of the assigned LSG employee. The
COTR told us he interviewed the LSG employee but did not obtain a resume of his work
history, education, or qualifications.

OASAM officials said they recognized that the task orders were deficient in defining the
requirements for the work to be performed and the qualifications of the contractor
personnel to be assigned. Therefore, OASAM officials said it was difficult for the COTR
to monitor the work performed. Without adequate documentation from LSG, DOL could
not support the 99.32 percent accuracy rate it had certified to OMB for the FY 2008
procurement data in the FPDS-NG, which OMB needs for its efforts in improving the
quality of acquisition data in the FPDS-NG. Therefore, the $190,718 OASAM paid to
LSG for this work could have been put to better use.

We initially recommended that the Department notify OMB of the results of this audit.
However, OASAM officials told us such action was not necessary, as OMB had issued
revised guidance because it recognized problems in the guidance provided for
performing the validation of FY 2008 FPDS-NG data. We obtained a copy of an
October 7, 2009, OMB memorandum to Chief Acquisition Officers and Senior
Procurement Officials, in which OMB changed the guidance for the FYs 2009 and 2010
FPDS-NG validation process because the FY 2008 guidance was not sufficient for
determining the accuracy of specific data elements with the required statistical
precision, and ambiguities in the sampling guidance resulted in inconsistencies in
agencies’ sampling approaches.




                                                  Federal Procurement System-Next Generation
                                            8                    Report No. 03-10-001-07-711
                                     U. S. Department of Labor – Office of Inspector General


Recommendations

We recommend that the Assistant Secretary for Administration and Management:

1. Provide training to procurement staff on understanding and entering data into the
   FPDS-NG to ensure it is complete and accurate for all contract actions.

2. Establish a mechanism within OASAM by which DOL procurement staff can address
   questions or problems related to entering procurement data into the FPDS-NG.

3. Ensure the contract requirements are specific and include time lines, staff
   qualifications/key personnel, and schedule of progress reports and other
   deliverables if DOL plans to use a contractor for future FPDS-NG reviews.

4. Require the assigned COTR to monitor the contactor to ensure the work complies
   with the contract requirements if DOL plans to use a contractor for future FPDS-NG
   reviews.

We appreciate the cooperation and courtesies that OASAM personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                  Federal Procurement System-Next Generation
                                            9                    Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
               10                    Report No. 03-10-001-07-711
           U. S. Department of Labor – Office of Inspector General




Exhibits




                        Federal Procurement System-Next Generation
                 11                    Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
               12                    Report No. 03-10-001-07-711
                                        U. S. Department of Labor – Office of Inspector General


                                                                                     Exhibit 1
Statistical Results and Projections


                                      Universe     Sample                             Upper
                                        Size        Size                            Limit - 95
FPDS-NG Data Element Tested             Contracting          Point     Standard      Percent
 for Each Contracting Action              Actions           Estimate     Error      One-Sided
Current Completion Date                  5341          66    30.65%        6.76%        41.80%
Extent Competed                          5341          66    29.25%        6.18%        39.44%
Ultimate Completion Date                 5341          66    19.15%        5.19%        27.72%
Base and Exercised Options Value         5341          66    14.70%        5.16%        23.21%
Date Signed                              5341          66    14.14%        4.84%        22.12%
Reason for Modification                  5341          66    11.25%        4.66%        18.94%
Type of Contract                         5341          66    10.65%        4.63%        18.29%
Type of Set Aside                        5341          66     9.85%        4.24%        16.84%
DUNS Number                              5341          66     7.66%        3.90%        14.09%
Action Obligation Amount                 5341          66     6.96%        3.88%        13.37%
Reason Not Competed                      5341          66     4.64%        3.22%         9.96%
8A Program Participant                   5341          66     4.64%        3.22%         9.96%
Small Disadvantage Business              5341          66     4.64%        3.22%         9.96%
North American Industry
Classification System (NAICS)
Code                                      5341         66     3.28%        2.39%         7.22%
Procurement Instrument Identifier         5341         66     2.86%        2.37%         6.78%
Award Type                                5341         66     2.32%        2.31%         6.13%
Historically Underutilized Business
Zone Firm                                 5341         66     2.32%        2.31%         6.13%
Funding Agency Identification             5341         66     0.00%        0.00%         0.00%
Description of Requirement                5341         66     0.00%        0.00%         0.00%
Woman Owned Business                      5341         66     0.00%        0.00%         0.00%
Service Disabled Veteran Owned
Business                                  5341         66     0.00%        0.00%         0.00%
Overall                                   5341         66     8.52%        0.71%         9.69%

Note: At the 90 percent confidence level, the overall accuracy rate is between 90.31 and 92.65
percent, with the point estimate of 91.48 percent. This is a very tight precision rate.




                                                      Federal Procurement System-Next Generation
                                              13                     Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
               14                    Report No. 03-10-001-07-711
                                      U. S. Department of Labor – Office of Inspector General


                                                                                     Exhibit 2
List of Data Elements Audited and Reason for Exception

                                        No Evidence in            Documentation in
                                        Contract file to          Contract File Does
                                       Support FPDS-NG             Not Agree With
 Types of Exceptions by Attribute           Data                   FPDS-NG Data           Total
Current Completion Date                        7                         12                19
Extent Competed                               16                          1                17
Ultimate Completion                            9                          5                14
Date Signed                                    0                          8                 8
Base and Exercised Options Value               2                          6                 8
Type Set Aside                                 3                          4                 7
Reason for Modification                        0                          7                 7
DUNS number                                    1                          5                 6
Type Of Contract                               2                          3                 5
NAICS Code                                     0                          5                 5
Action Obligation Amount                       0                          3                 3
Procurement Instrument Identifier              1                          1                 2
Reason Not Competed                            2                          0                 2
8A Program Participant                         1                          1                 2
Small Disadvantage Business                    1                          1                 2
Award Type                                     1                          0                 1
Historically Underutilized Business
                                                 0                         1                1
Zone Firm
Funding Agency Identification                    0                         0                0
Description of Requirement                       0                         0                0
Woman Owned                                      0                         0                0
Service Disabled Veteran Owned
                                                 0                         0                0
Business
Totals                                           46                       63              109




                                                      Federal Procurement System-Next Generation
                                            15                       Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
               16                    Report No. 03-10-001-07-711
             U. S. Department of Labor – Office of Inspector General




Appendices




                          Federal Procurement System-Next Generation
                   17                    Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
               18                    Report No. 03-10-001-07-711
                                        U. S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

The Office of Federal Procurement Policy Act of 1974 required OMB’s OFPP to
establish a system for collecting procurement data in the Federal Government. OFPP
implemented the FPDS in 1978, and GSA administers it on OFPP’s behalf. In
April 2003, GSA modernized the FPDS which is currently referred to as the FPDS-NG.
The FPDS-NG became available to the public in December 2004.

The Federal Government uses FPDS-NG data to create recurring and special reports to
the President, Congress, GAO, Federal executive agencies, and the general public.
Also, the Federal Government uses the reported data to measure and assess the
impact of Federal procurement on the nation’s economy, the extent to which awards are
made to businesses in the various socio–economic categories, the impact of full and
open competition on the acquisition process, and other procurement policy purposes.
Therefore, reliable information in the FPDS-NG is critical to informed decision making
and oversight of the procurement system.

In DOL, OASAM, through the Department's Procurement Executive, is responsible for
implementing the Department's procurement program and ensuring that the program is
performing in accordance with the appropriate laws and regulations. Through
delegations of procurement authority, the Department’s procurement program is a
decentralized structure. OASAM delegated procurement authority to Mine Safety and
Health Administration, Employment and Training Administration, Bureau of Labor
Statistics, and OIG. Within OASAM’s Business Operations Center, the Office of
Acquisition and Management Services (OAMS), establishes the procurement and grant
policy for DOL. OAMS is responsible for implementing the DOL procurement oversight
functions, administering the E-Procurement System (EPS), and maintaining DOL
procurement data in the FPDS-NG. OAMS is also responsible for conducting
procurement management reviews of regional and national offices.

DOL uses its EPS management information system for the procurement processes
throughout the Department. The EPS supports multiple user groups, including
requisitioners and acquisition specialists. DOL procurement staff submits most of the
procurement data to FPDS-NG electronically through the EPS.

In December 2003, GAO reported it had concerns regarding long-standing inaccuracies
and incomplete data in the FPDS-NG, and made specific recommendations to OMB to
help improve the system 4 . Subsequently, in FY 2007, OMB began requiring federal
agencies to take certain steps to ensure their full participation in the FPDS-NG initiative.
In May 2008, OMB issued a memorandum to Chief Acquisition Officers and senior
procurement officials on improving the quality of FY 2008 acquisition data in the
FPDS-NG. The memorandum stated that the passage of the Federal Funding
Accountability and Transparency Act of 2006 and subsequent activation of the
USAspending.gov website have increased public access and interest in Federal
4
    Improvements Needed to FPDS-NG, GAO-05-960R, September 27, 2005.

                                                     Federal Procurement System-Next Generation
                                               19                   Report No. 03-10-001-07-711
                                      U. S. Department of Labor – Office of Inspector General


acquisition and other Federal spending data. Therefore, OMB explained that agencies
need to assure that its data are accurate. The memorandum provided detailed guidance
for verifying, validating, and certifying FPDS-NG data. OMB required agencies to submit
data quality plans for FY 2008 FPDS-NG data and their goal was for all agencies to use
statistically valid processes for validating selected FPDS-NG data against the
corresponding contract files. By January 5, 2009, agencies had to certify their FY 2008
procurement data is in FPDS-NG and that their data quality plans were completed.

OMB expected agencies to randomly select contract records and in sufficient numbers
to produce statistically valid conclusions at a 95 percent confidence level, with an error
rate of no more than plus or minus 5 percent. The sampled contracting action report
must be validated against the associated contract file by an individual other than the
contracting officer who awarded the contract or the person entering the contract data.
The reviewer must obtain sufficient information to validate any contracting action report
data elements not contained in the contract file. Data elements that cannot be validated
must be considered incorrect.

DOL certified to OMB that 100 percent of all reportable contracting actions awarded
during FY 2008 had been entered into the FPDS-NG as fully and accurately as possible
and that its overall accuracy rate of the data elements tested was 99.32 percent.




                                                   Federal Procurement System-Next Generation
                                            20                    Report No. 03-10-001-07-711
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objective, Scope, Methodology, and Criteria

Objective

OIG initiated an audit of DOL procurement data in the FPDS-NG. The audit objective
was to determine if DOL provided Congress, GSA, and OMB with complete and
accurate procurement data.

Scope

The audit covered FY 2008 procurement data and DOL’s FY 2008 certification to OMB
on the accuracy of its data in the FPDS-NG. We used statistical sampling of DOL
procurement data in the FPDS-NG, and performed an analytical review of data from
DOL’s EPS. We performed our audit work at DOL’s National Office in Washington, D.C.,
from January through August 2009.

We initially planned to test a sample of contracts sampled and reviewed by the DOL
contractor, LSG. The purpose was to determine the reliability of LSG’s conclusions for
the certification of the DOL FY 2008 FPDS-NG data. However, because LSG did not
have support for its work, we conducted a statistical sample of the FPDS-NG data to
accomplish our objective. This significantly increased the amount of fieldwork and
lengthened the audit timeframe. Of the 1,386 data fields in our sample, 80 (5.7 percent)
were blank. We did not include these in our statistical error rates. According to the
FPDS-NG Data Dictionary, depending on the type of contracting action, the data fields
did not always have to be completed. We concluded that extending the scope to test
each individual blank field did not warrant the additional audit resources.

We conducted this audit in accordance with GAGAS for performance audits. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on the
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on the audit objective.

A performance audit includes an understanding of internal controls considered
significant to the audit objective and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing DOL’s policies and procedures for
administering DOL procurement data in the FPDS-NG and reviewing OASAM’s’ policies
and procedures for certifying to OMB the accuracy of the data. We confirmed our
understanding of these controls and procedures through interviews and documentation
review.




                                                  Federal Procurement System-Next Generation
                                           21                    Report No. 03-10-001-07-711
                                                         U. S. Department of Labor – Office of Inspector General


Methodology

To accomplish the audit objective we reviewed a statistical sample of 66 contracting
actions from a universe of 5,341. We obtained the FPDS-NG data base for DOL FY
2008 contracting actions on April 15, 2009, from GSA’s website. In evaluating whether
the FPDS-NG data were complete, we compared contracting actions in the FY 2008
FPDS-NG to DOL’s EPS. The universe in the FPDS-NG was 9,367 contracting actions
totaling $1,825,517,094. We omitted from the universe contracting actions for $3,000 or
less, resulting in 5,341 actions totaling $1,847,216,079. The reason the value of the
reduced universe is more than the total universe is because we also removed negative
amounts, which represent de-obligations. We used a stratified random sample design
by using the following stratification to the universe.

 Table 2 - Universe Stratification
                                                            Percentage to the
                                                          Total Number of 5,341      Number of Contracting
   Strata                     Range                        Contracting Actions*        Actions Sampled
     1              $3,001 to $381,929                              83%                         36
     2            $382,775 to $1,030,843                             7%                         5
     3          $1,030,844 to $1,733,642                             3%                         3
     4          $1,736,502 to $2,340,733                             2%                         3
     5          $2,346,836 to $2,989,704                             2%                         3
     6          $2,992,573 to $3,883,302                             1%                         3
     7          $3,931,195 to $5,677,572                             1%                         3
     8          $5,808,942 to $30,102,565                            1%                         10
* Percentages are rounded to the nearest full percent.


For each contracting action sampled, we reviewed 21 data elements contained in the
FPDS-NG. OMB required Federal agencies to verify 46 data elements for each
contracting action sampled. In order to reduce the number of data elements to audit, we
obtained an understanding of each of the data elements by reviewing their description in
the FPDS-NG data dictionary. We selected 21 of the 46 data elements based on what
we determined to be significant considering such factors as monetary, competition, high
visibility, and socio-economics. We contacted OMB officials involved in the FPDS-NG
data validation initiative and obtained their opinion on the significance of the data
elements we selected. We also discussed our selection with OASAM officials. OMB and
OASAM officials confirmed that the 21 data elements we selected would be useful for
our testing purposes.

To determine the accuracy of DOL procurement data reported in the FPDS-NG we
selected a statistical sample of 66 contracting actions and reviewed 21 data elements
that we considered important for reporting contracting activity. Our sample test results
were projected only to the 21 FPDS-NG elements tested. We considered the data
element to be incorrect if the FPDS did not match the information in the contract file or
the contract file did not contain sufficient evidence. This was based on the methodology
contained in OMB's May 2008 guidance to Federal Agencies for verifying, validating,

                                                                      Federal Procurement System-Next Generation
                                                               22                    Report No. 03-10-001-07-711
                                      U. S. Department of Labor – Office of Inspector General


and certifying FPDS data. OMB expected the reviewer to obtain sufficient information to
validate any FPDS data element and data elements that could not be validated were to
be considered incorrect.

In performing the audit, we evaluated internal controls used by DOL for reasonable
assurance that the reporting of DOL procurement data in the FPDS-NG and the
certifying of the completeness and accuracy of the data to OMB was administered and
conducted in accordance with Federal and internal requirements. Our consideration of
DOL’s internal controls for administering and conducting data validation would not
necessarily disclose all matters that might be reportable conditions. Because of inherent
limitations in internal controls, misstatements, losses, or noncompliance may
nevertheless occur and may not be detected.

In planning and performing the audit we relied on computer-generated data from the
FPDS-NG to identify the universe of DOL FY 2008 procurement data and select a
sample of contracting activity to test. We assessed the reliability of the FPDS-NG data
by performing analytical procedures of procurement data in the EPS and comparing it to
similar data in the FPDS-NG. We concluded the data was sufficiently reliable to use for
our purposes.

Criteria

We used the following criteria in performing the audit.

   •   FAR, Subpart 4.6, Contract Reporting

   •   FAR, Part 16

   •   May 2008 OMB Memorandum, Improving Acquisition Data Quality — FY 2008
       FPDS-NG Data

   •   Office of Federal Procurement Policy Act of 1974

   •   Federal Funding Accountability and Transparency Act of 2006

   •   Government Auditing Standards, July 2007




                                                   Federal Procurement System-Next Generation
                                            23                    Report No. 03-10-001-07-711
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                      Federal Procurement System-Next Generation
               24                    Report No. 03-10-001-07-711
                        U. S. Department of Labor – Office of Inspector General


                                                                Appendix C
Acronyms

    COTR      Contracting Officer’s Technical Representative

    DOL       U.S. Department of Labor

    DUNS      Data Universal Number System

    EPS       E-Procurement System

    FAR       Federal Acquisition Regulation

    FPDS      Federal Procurement Data System

    FPDS–NG   Federal Procurement Data System–Next Generation

    FY        Fiscal Year

    GAGAS     Generally Accepted Government Auditing Standards

    GAO       U.S. Government Accountability Office

    GSA       General Services Administration

    LSG       Logistics Solutions Group, Incorporated

    NAICS     North American Industry Classification System

    OAMS      Office of Acquisition and Management Services

    OASAM     Office of the Assistant Secretary for Administration
              and Management

    OFPP      Office of Federal Procurement Policy

    OIG       Office of Inspector General

    OMB       Office of Management and Budget




                                     Federal Procurement System-Next Generation
                              25                    Report No. 03-10-001-07-711
PAGE INTENTIONALLY LEFT BLANK




                  Federal Procurement System-Next Generation
             26                  Report No. 03-10-001-07-711
                                                 Appendix D
OASAM Response




                      Federal Procurement System-Next Generation
                 27                  Report No. 03-10-001-07-711
     Federal Procurement System-Next Generation
28                  Report No. 03-10-001-07-711
                                                                              Appendix E
Acknowledgements

Key contributors to the report were Michael Hill (Audit Director), Dan Pompilii, Eric
Rann, Joe Pomianek, Lawrence Ali, Steven Johnson, Dave Sterling, and Christine
Allen.




                                                   Federal Procurement System-Next Generation
                                            29                    Report No. 03-10-001-07-711
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
